                 Offlce of Inspector General
                Corporation for National and
                     Community Service




   Audit of the Corporation for National and
Community Service's Commuter Benefits Program

                 OIG Report Number 05-11




                                                    Cumoration for                 rn

                                                    NATIONALM
                                                    COMMUNITY



                              Prepared by:

                    Office of Inspector General
          Corporation for National and Community Service
              1201 New York Avenue, NW., Suite 830
                        Washindon, DC 20525




This report was issued to Corporation management on January 11,2005. Under the laws
and regulations governing audit follow up, the Corporation is to make final management
decisions on the report's findings and recommendations no later than July 11, 2005, and
complete its corrective actions by January 11,2006. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                                                Audit of the
                             Corporation for National and Community Service's
                                       Commuter Benefits Program


                                                      Table of Contents



Executive Summary ............................................................................................................. 1

Background .......................................................................................................................... 1

Objectives. Scope. and Methodology .................................................................................. 2

Results .................................................................................................................................. 3

Corporation Response .......................................................................................            Appendix A
                                   October 2 1,2004



The Honorable David Eisner
Chief Executive Officer
Corporation for National and Community Service
1201 New York Avenue, NW.
Washington, DC 20525

Dear Mr. Eisner:

The Office of Inspector General (OIG) has completed its audit of the Corporation for
National and Community Service's (Corporation) Commuter Benefits Program. Our
auditors identified certain areas of noncompliance with policies and procedures, and
several areas in the internal control structure that warrant corrective action.

Executive Summary

The Corporation's Commuter Benefits Program provides eligible employees with a tax-
free benefit of up to $100 per month to cover the cost of commuting on recognized public
transit systems. The objectives of the audit were to: (1) determine whether the program
operates in accordance with Corporation policies and procedures; (2) evaluate the
program's internal control structure; and (3) determine if controls are adequate to
properly administer, account for, and monitor the program. The scope of the audit
encompassed activity for Fiscal Years 2003 through 2004. We determined that $2,107,
or approximately .34 percent, of the $618,994 of commuter benefits expended in Fiscal
Years 2003 and 2004 should be recouped. The audit did not disclose material
weaknesses relating to the internal control structure. However, we are making
recommendations on several areas that warrant corrective action. The corporation
generally agrees with these recommendations and has begun to implement them.

Background

In Executive Order 13150, the President directed Federal agencies to implement a
transportation fringe benefit program by October 1, 2000. The Corporation implemented
the Commuter Benefits Program, which offers qualified Federal employees the option to
exclude from taxable wages and compensation a maximum amount of commuting costs
incurred through the use of mass transportation and vanpools.

The Corporation's program provides eligible employees with a tax-free transportation
fringe of up to $100 per month to cover the cost of commuting on recognized public
transit systems. Employees are eligible for commuter benefits if they commute to work
using public transit at least 10 business days per month. Employees who do not commute
to work at least 10 business days in any month due to vacation, illness, business travel, or
other reasons, must inform the Human Resources Office, which then adjusts the
employee's benefits. Commuter benefits may not be used to pay for parking at public
transit parking facilities, and the cost of such parking cannot be used to calculate an
employee's monthly commuting expenses.

On August 28, 2000, the Corporation and the U.S. Department of Transportation,
TASCITRANServe entered into a memorandum of understanding for the purpose of
obtaining TRANServe's administrative services and expertise to support the
Corporation's Commuter Benefits Program. The agreement specifies the services that
TRANServe will provide to the Corporation. TRANServe administers the Corporation's
Commuter Benefits Program in the Washington, DC, metropolitan area, as well as in
regional areas. TRANServe provides an estimated quarterly bill at least 30 days before
the commencement of each quarter of the fiscal year, using an on-line payment and
collection system.

From the inception of the Commuter Benefits Program in Fiscal Year 2001 through the
end of Fiscal Year 2004, approximately $1,172,467 in benefits have been paid to
participants. As of September 30, 2004,282 employees participate in the program.

Objectives, Scope, and Methodology

The objectives of the audit were to: (1) determine whether the Commuter Benefits
Program operates in accordance with Corporation policies and procedures; (2) evaluate
the program's internal control structure; and (3) determine if controls are adequate to
properly administer, account for, and monitor the program.

To achieve our objectives, we tested a sample of Corporation Headquarters and Field
Office participants in the Commuter Benefits Program to determine compliance with
policies and procedures. We also interviewed Commuter Benefits Program staff and
obtained information on: (1) management controls over the program, including
documentation of these controls; (2) oversight and monitoring of the program, including
documentation of such oversight; and (3) financial procedures in place to process
payments to TRANServe.

We performed our audit in accordance with generally accepted government auditing
standards issued by the Comptroller General of the United States.

An exit conference was held with Corporation management on November 5, 2004. The
issues presented in this report were discussed. The Corporation's response to the draft
report is included as Appendix A.
Results

Compliance with policies and procedures

We tested 15 percent of the participants in the Commuter Benefits Program. For each
participant we: (1) reviewed their application for commuter benefits to determine if the
participant was eligible to participate; (2) verified home addresses with personnel
records; (3) reviewed each participant's monthly commuting costs, comparing requested
amounts with actual commuting costs (excluding parking fees); (4) verified that the
participant received the amount of benefits recorded on the original application; and (5)
verified that the participant signed the certification form attesting to being eligible for the
benefits received. Based on a review of compliance with policies and procedures, we
found the following instances of noncompliance:

I . Employees Received Benefits After Separating From the Corporation

During a review of the four months selected for testing in Fiscal Years 2003 and 2004,
seven employees continued to receive commuter benefits after separating from the
Corporation. As a result, the Corporation paid $1,627 in benefits to individuals who were
no longer employees.

We recommend that the Corporation ensure that the funds in question were either
returned by the former employees or credited to the Corporation by TRANServe.

Corporation's Response

The Corporation has agreed to follow up to ensure that TRANServe credits the
Corporation's account for these funds.

OIG's Comment

We consider this response to be adequate.

2. Washington State Office

For Fiscal Year 2003, the Washington State Office purchased four Flexpasses to use the
Seattle transportation system. Each pass cost $480 and could be used for the entire year.
However, two of the employees who received Flexpasses separated from the Corporation
during the year. This resulted in the employees receiving $680 in commuter benefits for
months during which they were no longer Corporation employees.

We recommend that the Corporation ensure that the former employees returned the
annual transit passes to the Corporation, and controls are in place to account for these
types of passes.
Corporation's Response

The Corporation agrees and has changed the Clearance for Final Salary Payment Form
(#165) to include Commuter Benefits. Surrendering fare cards is now a step in the exit
process that all employees undergo upon leaving the Corporation. The Corporation effort
to contact the former Washington State Office employees has been unsuccessful, and
Corporation management has determined that the cost of further pursuing this matter is
not warranted.

OIG's Comment

We consider this response to be adequate.

3. Third Party Pick-up

The current Corporation policy allows third parties to collect an employee's commuter
benefits on their behalf. An employee who is unable to attend one of the designated
distributions can give a signed memo to a coworker authorizing the collection of benefits.
During a review of the four months selected for testing in Fiscal Years 2003 and 2004,
employee memos authorizing coworkers to pick up benefits were not on file for the six
employees who opted for third-party pick-up. The effect of this condition is that
employees may be allowed to collect and misuse an absent employee's benefits without
authorization.

We recommend that Human Resources keep a copy of the third-party pick-up
memorandum if an employee utilizes this option.

Corporation's Response

The Corporation agrees and has changed this policy and now requires employees to
personally pick up their commuter benefits. Employees who are on travel or leave on the
days benefits are distributed will be required to collect their benefits in person at the
Department of Transportation headquarters building.

OIG's Comment

We consider this response to be adequate.

Review of Internal Controls

We interviewed Commuter Benefits Program staff to obtain information on the
program's internal controls. We obtained information on the procedures in place to:
process payments to DOT and charge other Corporation departments; determine
eligibility to receive benefits; maintain and update files and records; receive, store, and
distribute benefits; prevent employees from obtaining more than one transit subsidy; and
assist employees who do not collect benefits on the distribution days. We also obtained
information on the extent of oversight and monitoring of the program. Based on the
information obtained and reviewed, we are making several recommendations regarding
internal controls.

I . Issuance of Ofjcial Policies and Procedures

   a. Policies to determine eligibility

       The Human Resources office has issued guidance on the Commuter Benefits
       Program via the Corporation's intranet. Some of this information is outdated.
       The Human Resources office advises on the intranet that the employee is
       responsible for knowing and abiding by the Corporation's commuter benefits
       rules. However, there is no mention of how employees can learn about these
       rules.

       We recommend that the Corporation develop and implement comprehensive
       policies for the Commuter Benefits Program. It should establish policies that
       clearly explain: (1) the Commuter Benefits Program; (2) the purpose of the
       program; (3) employee eligibility rules; (4) application requirements; (5) limits on
       benefits; (6) tax implications; (7) procedures for employees who are on leave; (8)
       procedures for the annual certification process; (9) procedures to reflect a change
       in the employee's address or cost of commute; (10) termination of benefits; and
       (1 1) other employee responsibilities.

       Corporation's Response

       The Corporation agrees and has begun drafting a comprehensive policy covering
       the Commuter Benefits Program. The draft is scheduled to be completed by the
       end of the second quarter of 2005. Once approved, the policy will be posted on
       the Office of Human Capital's website, and a summary outline of this policy
       statement will also be included in entrance kits given to all new employees.

       OIG's Comment

       We consider this response to be adequate.

    b. Procedures for maintaining and updating files and records

       The OIG recognizes that the Commuter Benefits Coordinator has improved the
       record-keeping of applications and monthly reports. However, during our review
       we noted the following:

           i.   Employees had indicated a change of address on forms submitted to the
                Commuter Benefits Program. However, we were unable to determine
                whether the Corporation reassessed the amount of benefits these
                employees should receive. We recommend that the Corporation establish
   procedures to reassess the benefit levels of employees who change their
   address.

   Corporation's Response

   The Corporation agrees and now requires commuter benefits participants
   who complete a home change of address form to also complete the
   certification of costs form that is currently required of new participants
   and for every employee once per year.

   OIG's Comment

   We consider this response to be adequate.

ii. Benefits to part-time employees are prorated. However, the commuter
    benefits application does not include a category that allows employees to
    designate part-time status. The effect of this condition is that part-time
    employees may be receiving more benefits than the amount to which they
    are entitled. We recommend that the commuter benefits application
    include a category that allows employees to document their status as either
    full-time or part-time.

   Corporation's Response

    The Corporation agrees and will include this change in the comprehensive
    commuter benefits policy currently being drafted. Pro-rated benefits will
    also be defined and examples will be included in the draft policy for
    clarity.

    OIG's Comment

    We consider this response to be adequate.

.ii. Corporation Headquarters (HQ) cannot determine who at the various State
     Offices and Service Centers received the packages containing commuter
     benefits. The effect of this condition is that controls do not exist to ensure
     that only authorized individuals are receiving and distributing benefits.
     We recommend that the employees responsible for receiving and
     distributing benefits at the State Offices and Service Centers submit copies
     of certification forms to HQ upon receipt of the commuter benefits
     package.

    Corporation's Response

    The Corporation agrees and will work with TRANServe to establish an
    appropriate audit trail for receipt of fare media in the field.
          OIG's Comment

          We consider this response to be adequate.

      iv. The TRANServe Detail Report does not always reflect the correct
          Corporation office of the participant. Accurate information will allow
          each office's budget officer to correctly certify payments to TRANServe
          for benefits paid out. We recommend that the Detail Reports received
          from TRANServe be updated to reflect the employee's correct office
          location.

          Corporation's Response

          The Corporation agrees and will continue to work with TRANServe to
          improve the accuracy of these monthly summaries. It will also begin
          reconciling TRANServe reports to Corporation records on a monthly
          basis.

          OIG's Comment

          We consider this response to be adequate.

       v. Original applications for benefits and annual certifications that employees
          are receiving the appropriate amount of benefits are not filed together.
          Keeping these documents together will ensure that participants'
          information is current. We recommend that original applications and
          annual employee certification forms be filed together.

          Corporation's Response

          The Corporation agrees and now files these forms together.

          OIG's Comment

           We consider this response to be adequate.

Oversight and Monitoring

The Corporation's Office of Human Resources initiated random monitoring for the
months of May and June 2004. However, the current review is limited to HQ
employees. In addition, the review does not verify whether HQ employees are
receiving the correct amount of benefits, because recent certification and original
applications are not being used. Lastly, the current review process does not include
controls to ensure that employees who separated from the Corporation or withdrew
from the program during the prior month are no longer receiving benefits. The effect
   of these conditions is that employees may receive an improper amount of benefits or
   benefits to which they are not entitled. We recommend that the Corporation's
   oversight and monitoring include: (1) employees from State Offices and Service
   Centers; (2) verification that the amount of benefits received equals the amount most
   recently certified; and (3) a review of employees who left the Corporation during the
   prior month, or who no longer participate in the program, to ensure that benefits were
   not improperly paid.

   Corporation's Response

   The Corporation agrees and will expand the review to include payments made to field
   staff. In addition, in preparing new commuter benefits policies and procedures, the
   Corporation will identify best practices on verifying payment accuracy in use at other
   Federal agencies that use TRANServe to administer their benefits programs.

   OIG's Comment

   We consider this response to be adequate.

3. Financial procedures

   The Corporation has never performed a reconciliation of commuter benefits financial
   activity. Based on this finding, the OIG performed a reconciliation of the financial
   activity from the inception of the program to September 30, 2004. We found: (1) the
   National Civilian Community Corps and the OIG are not being charged all service
   fees; (2) payments from the Inter-Agency Payment and Collection (IPAC) system are
   not posted against the year that funds are obligated; and (3) IPAC payments are not
   recorded in the general ledger on a timely basis.

   Performing and maintaining a reconciliation of financial activity will help the
   Corporation identify and correct these issues.

   We recommend that the Corporation develop comprehensive policies and procedures
   governing the Commuter Benefits Program that: (1) assign responsibility for
   preparing and maintaining a financial reconciliation of the program; (2) implement
   controls to ensure that funds carried forward from a prior year can be used; (3)
   implement controls to ensure that payments to DOT do not exceed obligated funds;
   (4) implement controls to ensure that all Corporation offices have been charged the
   appropriate service fees; (5) assemble and retain documentation for the Accounting
   Department to post IPAC payments; (6) permit only the respective budget officers of
   HQ, NCCC and the OIG to authorize the posting of payments against obligations; and
   (7) require commuter benefits transactions to be recorded in the general ledger in a
   timely manner. By implementing these recommendations, the Corporation will
   improve the administration of the Commuter Benefits Program.
Corporation's Response

The Corporation agrees and will work with the Executive Office and Accounting
Office to ensure that staff reconciles bills on a quarterly basis.

OIG's Comment

We consider this response to be adequate.
                            Appendix A


Response of the Corporation for National and Community Service
MEMORANDUM

Date:          December 23,2004

To:            Carol Bates, Actirg.Inspecto~enera1

From:          Joyce   {qL-+g&Acj.y
                         w ds, Chief Human Capital Officer

Subject:       Revi   Lidof Commuter Benefits Program
Thank you for the opportunity to comment on the draft report on the results of your
review of the Corporation's Commuter Benefits Program. The Corporation is pleased
that the review disclosed that overall the benefit is appropriately administered. We
believe that our current internal controls, as well as the integrity of the Corporation's
staff, explain why the error rate was only one third of one percent of payments during
fiscal 2003 and 2004.

The report identifies several areas where the Corporation could improve polices or
procedures. The Corporation generally agrees with these recommendations and has
begun to implement them as noted in the enclosed status report. Because the Corporation
has completed action on five of the 11 recommendations included in the report, this
response also serves as notice of final action for those items.

If you have any questions on our responses to your recommendations or plans for moving
forward, please contact Andrew Wasilisin, Director of Workforce Relations and
Communications, on Extension 466.




                         1201 New York Avenue, NW
                                              1
                                                         *
                                                  Washington, DC 20525
                                                 *
                               202-606-5000 www.nationalservice.org
                         senlor Corps   *   AmeriCorps   *   Learn and Serve America        The Prc\~denl'\Call lo Serrlce
                                                     Status of OIG Recommendation on
                                                        Commuter Benefits Program
                                                        (OIG Report Number 05-1 1)

Recommendation 1 - recoup $1,627 for seven employees who continued receiving
benefits after separating from the Corporation in fiscal 2003 and 2004.

Corporation Status - The Corporation contracts with the Department of Transportation,
TASCITRANServe to manage its Commuter Benefits Program and distribute benefits to
employees. The Office of Human Capital (OHC) promptly reports staff departures to
TRANServe, including those identified by OIG as having received payments after
departing the Corporation. We have reported these overpayments to TASCITRANServe
and requested that TASCITRANServe credit the Corporation's account for these funds.
[Corrective Action Complete]

Recommendation 2 - put controls in place to ensure that former employees return
unused Flexpasses and attempt to collect $680 in commuter benefits possibly collected by
two former employees who left the Washington State Office during fiscal year 2003.

Corporation Status - OHC changed the Corporation's Clearance for Final Salary
Payment Form (#165) to include Commuter Benefits in July 2004. Surrendering one's
fare card is now a step in the release that headquarters and field employees complete
during departure. Before a person can receive a lump sum payment they must have
completed this check-out. To date, our effort to contact the former Washington State
Office employees has been unsuccessful, and we have determined that the cost of
pursuing this further is not warranted. [Corrective Action Complete]

Recommendation 3 - when an employee authorizes a colleague to pick up their
commuter benefits during headquarters distribution days, OHC should have a file of this
correspondence.

Corporation Status - OHC changed this policy and now requires employees to
personally pick up their commuter benefits. The Corporation concluded that three
distribution days each quarter (two back-to-back days early in the month plus a mid-
month "make-up" day) at headquarters is adequate for most employees to receive their
benefit. Those few employees who are on travel or leave on all three days will be
required to collect benefits at the Department of Transportation headquarters building
near L'Enfant Plaza Metro station. [Corrective Action Complete]

Recommendation 4 - one inclusive policy on Computer Benefits Program should be
developed to replace several memos and forms that currently explain the program. It
should be posted on OHC's webpage and contain everything a participant needs to know,
from who is eligible to what an employee's responsibilities are once TRANServe issues a
fare card or other method to pay for a bus, train, van pool and so on.
Corporation Status - OHC has begun drafting a comprehensive policy covering the
Commuter Benefits Program. The draft, written in the Corporation's question and
answer format, is scheduled to be completed by the end of the second quarter 2005. Once
approved, the policy will be posted on OHC's website. A summary outline of this policy
statement will also be available in enter-on-duty kits given new employees.

Recommendation 5 - when participants complete a home change of address form, OHC
should have a procedure in place to document whether new distance traveled and type of
transit used calls for a reduction, an increase or no change to the benefit amount
(applicable to headquarters and field participants).

Corporation Status - OHC now requires commuter benefits program participants
completing a home change of address form to also complete the certification of costs
form currently required of new participants and by everyone one time per year.
[Corrective Action Complete]

Recommendation 6 - the application form should include a category that would permit
part-time employees to document their status and to calculate pro-rated benefits.

Corporation Status - OHC will include this change in the comprehensive commuter
benefits policy currently being drafted. Pro-rated benefits will also be defined and
examples included for clarity.

Recommendation 7 - to prevent unauthorized use, responsible officials in state offices
and service centers should certify receipt of packages containing fare media from
TASCITRANServe.

Corporation Status - OHC will work with TASCITRANServe to establish an
appropriate audit trail for receipt of fare media in the field. It is our view that the
distribution charges we pay should allow for registeringlcertifying mail and record
keeping.

Recommendation 8 - TASCITRANServe's monthly detail reports showing Corporation
participants by office has not always been correct. Accurate information is necessary for
the budget officers in AmeriCorps-kNCCC, OIG and OHC to certify payment amounts to
the Corporation's Accounting office.

Corporation Status - OHC will continue to work with TRANServe to try to improve the
accuracy of these monthly summaries and will begin reconciling TRANServe reports to
Corporation records on a monthly basis.

Recommendation 9 - employee applications and the annual certification form for
benefit amounts should be filed together.
Corporation Status - OHC now files these forms together. [Corrective Action
Complete]

Recommendation 10 - a review and monitoring process should be in effect to verify
whether employees are receiving the correct amount of benefits and to ensure that
employees who separate from the Corporation or withdraw from the benefits program do
not receive benefits for which they are not entitled. This is applicable to field and
headquarters employees.

Corporation Status - Each month, OHC randomly reviews a sample of headquarters
benefits payments to ensure they were made properly. OHC will expand this review to
include payments made to field staff. In addition, in preparing new commuter benefits
policies and procedures, OHC will be scouting for best practices (low-cost ways) on
verifying payment accuracy at other federal agencies using TASCITRANServe to
administer their benefits programs. This could include testing to see how benefits
claimed compare to what an employee is eligible to receive based on distances and fares
charged by various modes of transit, e.g., combinations of bus, subway, van pool and so
on. At this point, we do not believe that verifying each employee's entitlement would be
cost effective.

Recommendation 11 - assign responsibility for reconciling program's financial records;
ensure funds carried forward from prior years can be used; ensure that payments to
Transportation do not exceed obligations; ensure that contributing offices - OHC,
AmeriCorps* NCCC and OIG - are charged their appropriate service fees; assemble and
retain documentation necessary to posting P A C payments and ensure that only OHC,
ArneriCorps-kNCCC and OIG budget holders are permitted to certify P A C charges;
finally, assure that commuter benefits transactions are recorded in the general ledger in a
timely manner.

Corporation Status - OHC is responsible for managing the Commuter Benefits Program
ensuring that billings from TASCITRANServe are accurate and properly recorded in the
Corporation's financial system. OHC will work with the Executive Office and
Accounting Office to ensure that OHC staff reconcile the bills on a quarterly basis.
